I
No.

yafig

\gj

IN THE
SUPREME COURT OF THE UNITED STATES

Shawn frt r.kpn

— PETITIONER

(Your Name)
vs.

Shawn Brewer

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

FILED
SEP 1 5 2020
s>upIre1v£FcTourtLnqK

U.S.♦Court of Appeals For the Sixth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Shawn Dicken
(Your Name)

3201 Bemis Rri.
(Address)

Ypsilanti. MI 48197
(City, State, Zip Code)

U/A
(Phone Number)

QUESTIONS PRESENTED
I.

WAS PETITIONER DENIED DISCOVERY PURSUANT TO BRADY v. MARYLAND
373 U.S. 83 VIOLATING HER V, VI AND XIV CONST. AMENDS.?

II. WAS IMPROPER EXPERT OPINION TO LEGAL CONCLUSIONS A VIOLATION
OF FEDERAL STATUTES AND REGULATIONS, VIOLATING PETITIONERS
V, VI AND XIV CONST. AMENDS.?
III.WAS THE TRIAL COURTS DENIAL OF EXCULPATORY EVIDENCE A
VIOLATION OF PETITIONERS V, VI AND XIV CONST. AMENDS.?
IV, DID PROSECUTION COMMIT REVERSIBLE ERROR DURING HIS ARGUMENT
ABOUT MS. HARRY'S POWER OF ATTORNEY VIOLATING PETITIONERS
V, VI AND XIV CONST. AMENDS.?

LIST OF PARTIES

'tyC All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-9

REASONS FOR GRANTING THE WRIT

10-22

CONCLUSION

23

PROOF OF SERVICE

24
INDEX TO APPENDICES

APPENDIX A U.S. Court of Appeals for the Sixth Circuit
APPENDIX B Eastern District of Michigan
APPENDIX C Michigan Supreme Court

APPENDIX D Michigan Court of Appeals
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED
CASES

PAGE N UMBER

*SEE ATTACHED*'

STATUTES AND RULES

OTHER

I

TABLE OF AUTHORITIES CITED
CASES

PAGE #

Barton v. Warden 786 F3d 450
Berger v. U.S. 295 US 78 ....
Brady v. Maryland 373 U.S, 83
California v. Trombetta 467 US 479 .
Chambers’v, Mississippi 410 US 284 .
Chapman v. California 382 US 18 ....
Davis v. Alaska 415 US 316 .........
Dawson v. Delaware 503 US 159 ......
Donnelly v, DeChristoforo 416 US 637
Guam v, Innacio 10 F3d 608
Hennon v. Cooper 109 F3d 330
Jefferson v, U.S. 730 F3d 537
Lenoir v, U.S. 90 F2d 329 ...
Robinson v. Mills 592 F3d 730
Rock v. Arkansas 483 US 484 .
Sizeraoor v, Fletcher 921 F2d 667
U.S. v. Bagley 473 U.S, 667 ....
U.S, v, Bencs 28 F3d 555 ...........
U.S. v. Ganier 468 F3d 92U ........
U.S. v. Parks 668 F3d 295 ..........
U.S. v. White 492 F3d 380 .........
Washington v. Texas 388 US 14 .,
Wearry v. Cain 136 S. Ct» 1008 .

•

9

14
21
11, 12
18
19
14, 19
19
22
21
22
21

9999*9999999*994999999999999 14

II

20
14
19
14, 19
12
12
17
21
16
18
14

TABLE OF AUTHORITIES CITED

PAGE #

STATUTES AND RULES

. .20
.20
20, 22
5
..5, 19
5
16
17
17
17
17

MCL 400.11 ..................... ......... ..
MCL 400.703 ............................ .
MCL 750.145 .........------ .....
MCL 750.159 ....................... .........
MCL 750.174 ....... .................. .
MCL 750.218 ..................................
MCR 6.201 .............................. .
U.S.C.S. Fed. R. Evid 702 ____
U.S.C.S. Fed. R. Evid 703 .....
U.S.C.S. Fed. R. Evid 705 .....
U.S.C.S. Fed. R. Grim. Proc. 16

U.S. Constitutional Amendments
V
VI
XIV

13,14,17,19,22
13, 14, 17, 19, 22
13, 14, 17, 18, 19, 20, 22

III

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

|£ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[X] reported at 2020 U.S. App. LEXIS 17882
-5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

A

to

JB__ to

[X] reported at 2019 U.S. Dist. LEXIS 211211
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
(X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix _£— to the petition and is
[X| reported at snj
QQ4
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
r'

The opinion of the Michigan Court of Appeals
court
appears at Appendix _H
to the petition and is
E ] reported at 2016 Mich Add LEXIS 20. also 2018 Mich . or> App LEXIS 207
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[Xl For cases from federal courts:
The date on which the United States Court of Appeals decided my cas e
was -Timp Sj 7070__________
|X] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

R] For cases from state courts:
The date on which the highest state court decided my case was or.t-nhpy 31 f ?017
A copy of that decision appears at Appendix _C_____
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including---------------------(date) on______________ (date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

US V CONSTITUTIONAL AMENDMENT
...Nor shall any person be subject for the same offence to lie twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case tocbe a
witness against himself, not b§ deprived of life, liberty,or property, without
due process of law; nor shall private property be taken for public use, without
just compensation.

US VI CONSTITUTIONAL AMENDMENT
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial by an impartial jury of the State and district wherein
the crime shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the accusation
to be confronted with the witnesses against him; to have compulsory process
for obtaining witnesses in his favor, and to have Assistance of Counsel for his
defense.

US XIV CONSTITUTIONAL AMENDMENT
...............nor shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction
the equal protection of the laws.

3

STATEMENT OF THE CASE
On March 13, 2014, a state court jury found Petitioner
guilty of seven counts of making or using false pretenses to
obtain money from a person with the intent to defraud or cheat,
a felony, in violation of MCL 750.218 (4)(a), one count of
felony embezzlement in violation of MCL 750.174a (6)(a), and
one count of conducting a criminal enterprise by obtaining
money by false pretenses, a felony, in violation of
MCL 750.159: (1).

On July 31, 2014, Petitioner was sentenced

to 140 months to 20 years in prison.
Between January 2011 and November 2012, Petitioner was
employed as a registered financial representative for the
Diversified Group;

allegedly Petitioner solicited investors,

mostly senoir citizens to invest in Diversified; she made material
misrepresentations regarding the investment, stating
that the investment was without risk, was completely liquid,
and featured a guaranteed rate of return of between 9.5% and
10.44%; she failed to disclose the risks that this was a highly
leveraged real estate investment that could result in the loss
of all their money,

Based on these allegations Ms. Dicken

obtained over $1.5 million from investors.

In actuality these

funds were found to be invested in a Ponzi scheme ran by owner
Joel Wilson.
Petitioner maintains she offered an in investment product
to sorhe of her clients which involved them investing in real
estate projects.

The terms of the investment required the

5

/

investors to provide money to the Diversified Group which was
funneled to one or more LLCs in exchange for short-term partnership
interests in the LLCs.

The LLCs would then purchase and renovate

distressed real properties and then rent the properties to
third-party tenents with ultimate goal to sell the properties
outright and repay the investors in full while making interest
payments to the investors along the way.

Ms. Dicken invested

almost $78,000 of her own money to this product,

The real estate

properties did not sell as quickly as predicted and eventually
the company responsible for the product defaulted on interest
payments to the investors,

Ms. Dicken became suspicias of the

product and began asking questions which quicklt resulted in her
termination of the company.
Petitioner continues to maintain that she fully disclpeed
all the risks to the clients and that the brochures and other
printed materials given to her clients stated that there was
risk and that you could risk all of your investment with the
particular product.

Defense councel during the trial informed

the jury that the properties were real and many of them were
being rented out or being sold on land contract at the time of
the trial.
On March 9, 2014, the Petitioner filed a written motion
for a mistrial based on the witholding of exculpatory testimony.
The motion focused on the testimony of Special Agent Pete Ackerly*
During the course of testimony of Ackerly, he acknowledged that
he interviewed witness Jessica Burch and produced a statement

6

which had never been turned over to the defense, despite three
requests from the defense for the evidence.

This statement

made it clear that Scott Bartlett digitally placed forged
signatures on various subscription agreements, not Ms. Dicken.
The witness also made it clear that Mr. Bartlett was acting
under the direction of Joel Wilson, the owner of Diversified,
at the time.

Mr. Bartlett also acknowledged later in that day

that he in fact applied the signatures including the complaintant
Beverly Harry's documents.

During the trial the state implied

Petitioner applied the forged signatures while suppressing evid­
ence that Scott Bartlett took responsibility for the signatures.
Petitioner also moved for a directed verdict on the criminal enter­
prise conviction on the grounds that there could not be a one
person criminal enterprise and because Beverly Harry was not
vulnerable withib the meaning of the statue.

The State Court

denied the motions holding that while the evidence was relevant,
the defendent could have obtained the evidence on her own.
Petitioner had filed numerous pretrial motions and/or discovery
demands, starting with counsels initial appearance, councel
demanded production of all documents.
During trial, Debra Razee, a Diversified employee testified
that she handled the payrolls at Diversified, including commisions;
she was ultimately fired by Joel Wilson.

After being fired she

discovered that the 401(k) was not funded and lost money as a
result of her dealing with Joel Wilson,

Ms. Razee further stated

the only account Petitioner had control over was a Frankenmuth
Credit Union.

This was not the account where the Beverly Harry
7

money had been deposited.
Michael Razee, who was part owner of Diversified until April
2012, testified that Petitioner invested between $75,000 and
$78,000 of her own money in the American Reality Fund,

This

money came from Petitioner liquidating her IRA, and at the time
of trial she was the fifth or sixth largest shareholder in the fund.
The owner of Diversified, Joel Wilson, who was actually
running this Ponzi scheme and forging paper work and Income tax
returns for his employees, with the help pf his mother fled to
Germany at the time of Petitioners arrest,
arrested and held by Interpol,

He was eventually

Due to Mr. Wilson not being extra-

dited to Michigan to face charges when Petitioner's trial was
active the court did not allow the defense to present evidence
that Mr. Wilson was the actual beneficiary of this scheme.

Mr.

Wilson went as far as to having his mother Madlon Bosquet,
fraudulently put on Jessica'Burch's Tax Return in 2011 that s&e
was the sole Proprietor of Diversified, which shows premeditated
intent in 2011 that Mr. Wilson was putting his "ducks in row"
before his Ponzi scheme was brought to light.
Petitioner Dicken, while employed at Diversified did not know
Joel Wilson was running a Ponzi scheme,
receive any monies from her investors.

Petitioner did not
Some of these investors

were friends and family of hers that she had previously worked
with.

Petitioner even invested almost $78,000 of her own money.

If she had known this was a Ponzi scheme, would she have done
that?

Petitioner Dicken was a Patsy in Joel Wilson's scheme,

8

as well as a victim like the complaining investors.
Petitioner has exhausted all the questions presented in the
State Courts and Federal Courts, as seen in Appendies.

The

Sixth Circuit denied Petitioner a Certificate of Appealability
on June 5, 2020.

Petitioner now presents this Petition of

Certiorari *

•v

9

REASONS FOR GRANTING THE PETITION

10

REASON FOR GRANTING PETITION
Petitioner Shawn Dicken, in pro per, presents this Writ
maintaining the Sixth Circuit’s denial of Certificate of Appeal
is a manifest error.
Petitioner Dicken was a Licensed Registered Representative,
who was employed by Diversified Group, owned and operated by Joel
Wilson.

In the Circuits denial, (Appendix A pg. 1, para. 2) the

court held that Ms. Dicken forged her client signature’s.
incorrect.

This is

In the discovery requested numerous times, was an

investigative report by Agent Ackerly, in which during an inter­
view with Diversified employee Scott Bartlett, Bartlett admits
he forged the signatures as directed by owner Joel Wilson,
(Appendix A pg. 4, para. 1), on all documents.

Petitioner maintains

she was denied fundamentally fair discovery of the investigation
of the business entities and police interviews with other Divers­
ified employees, thereby, denying her right to discovery Brady
v. Maryland 373 U.S. 83 (1963).

The requested discovery was

exculpatory; evidence that would have shown the jury that Petit­
ioner was a mere Patsy in Diversified Owner, Joel Wilson,
embezzlement scheme.

It is a proven fact that Petitioner became

suspicious of Diversified and only when she began to question the
Groups actions, she was fired.

Before investigations and warrants

were issued Ms. Dicken interviewed with SEC, which was transcribed
and found to be not guilty of any wrong doing.

This interview

was not made available as seen by motions to compel discovery.
Petitioner through her attorney filed numerous pretrial motions

11

for discovery.

In the motion filed on December 19, 2013, defense

maintained States Attorney selectively edited the investigative
file to only provide evidence focusing on this Petitioner and
not the owner or other employees or contractors for the Diversified Group.

In the five motions Petitioners councel filed, incl­

uding the request for In-camera review of Discoverable materials
filed on January 9, 2014, councel identified various documents
not in the discovery including but not limited to the SEC testimony
of Michael Kazee, and the missing statements of David Dishaw.
Erroneously, the State Appeals Courts held no Brady violation
occured.

The Courts also held that defense did not request an

in-camera inspection of the requested materials,

This is incorrect

and Petitioner did provide as attached a copy of this motion and
the judges decision in which he agreed to the in-camera review,
but then found the evidence to be irrelevant and declined an
in-camera review.

The items requested are pertinent to the

Petitioners guilt or innocence

and her punishment Brady (287.Id.

There also stands a strong reasonable probability that the items
requested would have resulted in a different verdict if disclosed
to the jury, a reasonable probability sufficient to undermine
confidence in the outcome, U.S. v. Bagley 473 U.S.667, 683 (1985).
Ms. Dicken is not relying on "mere speculation" as held by
the State Courts.

This Supreme Court has rejected the claim

that the duty to disclose hinges on the usefulness of the material
to pretrial preparation, US v. Bencs 28F 3d 555, holding "such a
standard would nessarily encompass incriminating evidence as well

12

as exculpatory evidence, since knowledge of the prosecutor's
entire case would always be useful in planning the defense"
Bencs @560, Id.
This Petitioner maintains that if the following discovery
had been disclosed to the jury she would not have been found
guilty, and her V, VI and XIV Const. Amends, would not have
been violated:
1)

FINRA Transcripts,

2)

SEC Transcripts,

3)

QFIR Transcripts,

4)

Diversified Group Federal Receivership records,

5)

Power of Attorney for Beverly Harry,

6)

Copy of cashed checks from Beverly Harry,

7)

Victim's statements from IRA Services,

8)

Transcripts of Steven Monoghan dated June 14, 2011,
which was not disclosed until October 23, 2015, during
Petitioner's restitution hearing, in which Attorney
King requested an evidentriary hearing and request was
denied,

9)

Police report of interview of Jeremy Dickon by Agent
Ackerly, and

10) Any and all victim impact statements collected by Pros­
ecution prior to trial.
These documents prove Petitioner was not the individual embezzling
monies and conducting a criminal enterprise,

All of these re-

quested documents would have complied plenty of exculpatory
evidence to establish reasonable doubt to the triers of fact, to
render this Petitioner not guilty,

The duty to disclose could

encompass inadmissible information where that information appears
13

likely to lead the defense to the discovery of admissible
evidence Barton v. Warden 786 F3d 450 (6th Cir. 2015).

In Barton

the court stated that Brady requires all exculpatory and impeach­
ment evidence discovered to the defense, not just ’’some evidence
on the assumption that defense councel will find the cookie
from a trail of crumbs."
Here, the many requests and hearings for discovery is reas­
onable diligence to discover the factual predicate underlying
the claims.

Here the prosecutor failed to disclose the inform­

ation despite ongoing notice that the defense sought the very
information suppressed.
2013).

Jefferson v. U.S. 730 F3d 537 (6th Cir.

When the State fails to turn over numerous pieces of fav­

orable evidence, the proper focus of the materiality inquiry is
on the cumulative effect of the suppressed evidence rather than
an analysis of each piece of evidence.

Wearry v. Cain 577 U.S.

no # Available (2016) 136 S. Ct 1008, Harmless error is absent,

It

cannot be said beyond a reasonable doubt that the exclusion of
this constitutionally protected evidence was harmless beyond a
reasonable doubt, U.S. Const. Amends. V, VI and XIV; Chapmen
v. California 382 US 18 (1967); Sizeraoor v. Fletcher, 921 F2d
667 (6th Cir. 1990).
To establish a Brady Violation, the Petitioner must demon­
strate that: (1) the evidence in question is favorable: (2) the
prosecutor suppressed the evidence; and (3) there is reasonable
probability that the result of her trial would have been different
had the evidence been disclosed to the defense, Robinson v. Mills
14

592 F3d 730.

This Petitioner maintains that the interviews

requested are favorable to her defense, the prosecutor suppressed
them for that very reason and had the jury heard these inter­
views they would have seen the actual perpetrator of this em­
bezzlement scheme was Joel Wilson, the owner of Diversified,
who fled the country after Ms. Dicken's interview with FINRA.
The end result, after Mr. Wilson was returned to the U.S., was
Ms. Dickan was sentenced to 3 1/2 years more time in prison than
Joel Wilson.

The Sixth Circuits conclusion is an unreasonable

determination of the facts, therefore a new trial is required
and the writ must issue.
Secondly, Joseph Spiegel, the states expert witness who
testified is an attorney who practices security and transactional
law.

Defense Councel repeatedly demanded a summary of the pro­

posed testimony of Joseph Spiegel.

Eventually the prosecutor

provided a 1 and 1/4 page letter which included the curriculum
vitae of Joseph Spiegel.

The three paragraphs of the letter

that responded to the defense inquiry stated that Joseph Spiegel
will educate the jury about securities and how they are regulated,
the types of licenses issued to investment advisors and the
duties owed by the advisors to the clients and the reason underlying the same,

Mr. Spiegel wove his arguments about duties

from a variety of sources including federal security laws from
which this transaction was likely exempt,

Trial councel heard

for the first time an opinion called from/based on a huge number
of sources with effectively no advance notice of the content of
15

the opinion*

The prosecutor's generic catch-all letter was an

attempt to completely circumvent the rule.
MCR 6.201 (A) (iii) makes it mandatory that the State provide
the curriculum vitae and either the written report of the ex­
pert or a written description of the substance of the proposed
testimony of the expert, the expert's opinion, and the under­
lying basis of that opinion,

The letter which was submitted does

not comply with the spirit of the rule.

The defense responded

to the letter that the underlying data had not been disclosed
and that language such as "she breached a material duty" of candor
to her investors without providing the documents, manuals, books,
or other data that Joseph Spiegel was predicating his opinion
on was a violation of HCR 6.201 (A) (iii).

The trial court

correctly noted, the defense objection was not the expert's re­
liance on the preliminary examination of the complainants testimony
but on the application of unknown standards of care to the test­
imony.

The prosecutor represented to the court that the stand­

ards came from Federal Statutes and regulations.

Ultimately

the trial court denied the defenses motion to exclude the testimony.
At the beginning of the trial there was a lon^ collquy regarding
the lack of notice of expert testimony and the prosecutor's
failure to disclose the substance of the testimony,

The pros-

ecutor's manipulation of the expert witness discovery process
is a violation of HCR 6.201 (B).
I

In US v. White and Suhadolnik, 492 F.3d 380 (6th Cir. 2007),

the court noted the importance of full disclosure where the
16

’’government failed to comply with minimal notice requirement
regarding the witnesses qualifications and summary of their
expected testimony."

In U.S. v. Ganier 468 F3d 920 (6th Cir 2006)

the court noted that the prosecutor failed to provide a written
summary of the expert witness findings as requested by the Fed­
eral rule.

Here the manipulation of the rule foreclosed an

opportunity to prepare for this wide randing testimony and denied
defendant a fundamentally fair trial, U.S. Const. Amends. V, VI and
XIV.

U.S.C.S. Fed. R. Grim. Proc.16(G) governs expert witnesses.

At defense's request the government must give to the defense
a written summary of any testimonies that they intend to use
under rules, 702, 703, or 705 Fed. R. Evid.

Thereby, Joseph

Spiegel's testimony, as seen by the record violated Petitioner's
Constitutional Amendment Rights and her conviction should not
stand.
Petitioner next maintains that even though she testified
at trial, the defense sought evidence of her testimony before
the FINRA state agency.

FINRA is the Michigan State Agency

that investigated Diversified.

This is direct evidence of her

relationship to the investigation of Diversified where Shawn Dicken
was employed at the time of the charges.
Petitioner's defense was that she was not involved in a
criminal conspiracy with other individuals at Diversified.
She believed she was involved in the lawful sale of a legitimate
limited partnership product and only when she became suspicious
and began to question the goings on, she was fired.
17

Evidence

that Petitioner came willingly forward and fully provided all
the information to government investigators is directly relevant
to negating intent.

Evidence negating Petitioner's criminal

intent is relevant.

At trial, defense councel sought to have

a tape recording of Shawn Dicken's FINRA testimony played for
the jury in support of the defense that she was not involved in
a criminal conspiracy and had no intent to defraud,

The

testimony portrays Ms. Dicken's relationship to Diversified,
Triton and to the investigation of those entities.

The testimony

is detailed and forthcoming to Ms. Dicken's demeanor in the course
of the FINRA agency investigation of Diversified is direct evid­
ence of her lack of intent to defraud.
The effect of the evidence would have been graphic in showing
to the jury Shawn Dicken's relationship to the investigation
in her work for Diversified.

The trial Courts exclusion of this

evidence violated Ms. Dicken's constitutional right to present
a defense.
It is the jury's role to evaluate the evidence.

The U.S.

Constitution guarantees the right of a "meaningful opportunity" to
present a complete defense California v. Trombetta, 467 US 479, 485
(1984).

As applied to the states by the due process clause of

the xiv Amendment, the accused has the right at trial to present
testimony that is "relevant," material," and "vital to the defense."
Washington v. Texas 388 US 14, 16 (1967), the unavoidable concl­
usion to be drawn from the Supreme Court's cases is that the
right to present evidence to establish a defense is clearly
18

established as a fundamental element of due process of law,
Bock v. Arkansas, 483 US 484 (1987), Chambers v. Mississippi
410 US 284 (1973).

Due process of law requires that the defend-

ent is allowed to place the evidence in the context of her cir­
cumstances and her setting, U.S. Const, Amends. V, VI and XIV,
see Davis v. Alaska 415 US 316 (1974).

Harmless error is absent.

Proof of guilt in this case was strongly contested,

It cannot

be said beyond a reasonable doubt that the exclusion of this
constitutionally protected evidence was harmless beyond a reasonable doubt, U.S. Const. Amends. V, VI and XIV; Chapmen v.
California 386 US 97 (1967); Sizemour v. Fletcher, 921 F2d 667
(6th Cir. 1990).
Defense Councel tried to present significant evidence under­
cutting the State's case.

The FINRA Interview could have been

the proverbial straw which broke the back of certainty of the
jury.

The trial courts ruling to exclude the recording was

objectively unreasonable and violates this Petitioner's Const­
itutional Right to a fair trial.

The Circuit Courts denial

should be reversed.
Lastly, in count 9 of the information, Defendent is charged
with obtaining money from a vulnerable adult, to-wit: Beverly
Harry, contrary to MCL 750.174 (6) (a).

Pursuant to MCL 750.174

(15) (c) (m), the term ’'vulnerable adult" is defined as 1 or more
of the following: (1) an individual age 18 or older who,
because of age, development disability, mental illness or physical
disability requires supervision or personal care or lacks the
19

personal and social skills required to live independently; (ii)
an adult as defined in section 3 (1) (b) of the Adult Foster
Care Facility Licensing Act, MCL 400*703; and (iii) an adult as
defined in Section 11 (b) of the Social Welfare Act, MCL 400.11,
MCL 750.145 (m) (6).
Evidence regarding Ms. Harry's disability was provided by
one witness: Richard Sova, who acted as the Power of Attorney for
Ms. Harry.

Aside from the testimony of Mr* Sova and the exhibits

admitted during his testimony, no other evidence regarding Ms.
Harry's alleged disability was introduced*
The Prosecutor presented improper false light and testimony
that Richard Sova's Durable Power of Attorney was evidence of
present, incompetency, vulnerability, or that it was illegal
for Shawn Dicken to directly communicate with Beverly Harry due
to Sova's Power of Attorney.
Ms. Harry was a disabled Individual, only after having made
her investment with Shawn Dicken.

Ms. Harry had granted Richard

Sova durable Power of Attorney years prior, while still managing
her own affairs.

After having been injured in a vehicle accident

Ms. Harry continued to make her own financial decisions, while
allowing Mr. Sova to help manage her affairs,

The Prosecutor

repeatedly argued during the trial that Ms. Dicken*s dealing with
Ms. Harry directly was an exploitation of a vulnerable adult
and that she should have dealt with the agent.

A durable power

of attorney is not a cessation of an individual's right to act
on their own behalf and is not a guardianship, Lnoir v. US
20

90 F2d 329.
A durable Power of Attorney is not created nor approved
by a probate court.

Many individuals who are active and healthy,

like Ms. Harry, give spouses or other trusted individuals power
of attorney to act on their behalf,

In fact, once the individ-

ual becomes Incompetent. they can no longer grant a power of att­
orney .
The Prosecutor breached his duty to the jury and the public
by making this argument and presenting testimony which advocated
that a durable power of attorney was evidence of present incomp­
etency , vulnerability, or that it was somehow unethical to directly
communicate with an individual who has an appointed agent.

An

agent is not a lawyer and the argument was nothing more than an
exploitation of confusion over the name "power of attorney."
While a Prosecutor can use vigor to obtain convictions, he or she
cannot use "vigor" to distort the truth, Berger v. U.S. 295 US
78, 55 S. Ct. 629.

"The due process clause has been interpreted

to forbid prosecutors from obtaining jury verdicts by means of
statements that are seriously misleading or otherwise prevents
the jury from deliberating rationally about a defendant's guilt."
Hennon v. Cooper 109 F3d 330:, quoting Donnelly v. DeChristoforo,
416 US 637.
Recently the U.S. Court of Appeals held that a Prosecutor's
duty to present truthful evidence applies even when the basis of
the prosecution's knowledge of the falsity of the evidence
comes from outside the four corners of the record.
21

U.S. v. Parks

668 F3d 295, Stated another way, even though the record migbit
have supported the argument, the prosecutor's duty of candor
prohibited him from making an argument which the prosecutor
knew from putside the four corners of the jury trial was false.
It was clear fro evidence presented, and lack of evidence
presented, that Ms. Harry was not a "vulnerable adult", no test­
imony was given regarding Ms. Harry being in an adult foster care
program or meeting the Criteria of the Social Welfare Act.
It is therefore beyond dispute that prongs ii and iii of MCL
750.145 (m) (c) are inapplicable.

Then question then remains

whether Ms. Harry would meet the criteria of prong 1.
does not.

She clearly

The evidence presented shows that Ms. Harry was cap­

able of making her own financial decisions, and in fact did so,
as she had done with her investments with Petitioner years before.
In a criminal case, it is not that a prosecutor shall win a
case, but that justice be done, Berger, Supra.
It cannot be said that the prejudicial testimony due to
consolidation of the cases failed to affect the jury,

The effect

of the ruling ;was to deny Petitioner her right to a fair trial and
due process of law, U.S. Const. Amends. V, VI and XIV.

Dawson

v. Delaware 503 US 159 (1992); Guam v. Innacio 10 F3d 608
(9th Cir. 1993).

Therefore the Circuit Court's denial of relief

should be vacated and Petitioner remanded for a new trial.

22

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

D
ft-iq-aoao

23

i

